<html>
<title> - BUILDING SAFER COMMUNITIES: THE IMPORTANCE OF EFFECTIVE FEDERAL-LOCAL COLLABORATION IN LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 112-897]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-897
 
 BUILDING SAFER COMMUNITIES: THE IMPORTANCE OF EFFECTIVE FEDERAL-LOCAL 
                    COLLABORATION IN LAW ENFORCEMENT 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2011

                               __________

                          WILMINGTON, DELAWARE

                               __________

                          Serial No. J-112-27

                               __________

         Printed for the use of the Committee on the Judiciary


                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-607 PDF                       WASHINGTON : 2012 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher, a U.S. Senator from the State of 
  Delaware.......................................................     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     4
    prepared statement...........................................    32

                               WITNESSES

Witness List.....................................................    31
McFeely, Richard, Special Agent in Charge, Federal Bureau of 
  Investigation, Baltimore Division, Baltimore, Maryland.........     6
    prepared statement...........................................    34
Coupe, Colonel Robert, Superintendent, Delaware State Police, 
  Dover, Delaware................................................     9
    prepared statement...........................................    42
Hosfelt, Chief James, Dover Police Department, Dover, Delaware...    12
    prepared statement...........................................    50
Burch, James, Principal Deputy Director, Bureau of Justice 
  Assistance, Office of Justice Programs, Washington, DC.........    16
    prepared statement...........................................    54
Fennell, Drewry, Executive Director Delaware Criminal Justice 
  Council, Wilmington, Delaware..................................    18
    prepared statement...........................................    63

                               QUESTIONS

Questions for James Burch submitted by Senator Chuck Grassley....    65
Questions for Drewry Fennell submitted by Senator Chuck Grassley.    71

                                ANSWERS

Responses of James Burch to questions submitted by Senator 
  Grassley.......................................................    74
Responses of Drewry Fennell to questions submitted by Senator 
  Grassley.......................................................    92

                       SUBMISSIONS FOR THE RECORD

``Combating Crime with Restorative Justice,'' by James Nolan and 
  Mark Brunswick, delawareonline, December 7, 2010, article......    98


 BUILDING SAFER COMMUNITIES: THE IMPORTANCE OF EFFECTIVE FEDERAL-LOCAL 
                    COLLABORATION IN LAW ENFORCEMENT

                              ----------                              


                         MONDAY, JUNE 20, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:08 a.m., 
Second Floor Auditorium, Carvel State Office Building, 820 N. 
French Street, Wilmington, Delaware, Christopher Coons 
presiding.
    Present: Senator Leahy.

  OPENING STATEMENT OF HON. CHRISTOPHER COONS, A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Coons [Presiding]. Good morning, ladies and 
gentlemen. It is an honor to convene this hearing of the Senate 
Committee on the Judiciary.
    I would like to thank Chairman Leahy for allowing me the 
privilege of doing so and for joining us here in Wilmington 
today.
    It is also an honor to welcome some of our distinguished 
guests this morning, the five who will testify before this 
field hearing and many others from the law enforcement 
community who have joined us here in the audience.
    I know I will miss a few. Hopefully, you will forgive me. 
But before coming up to begin the hearing, I had noted the 
presence of Delaware's United States Attorney, Charles Oberly; 
our United States Marshal, Joe Papili; Senior Agent in Charge 
Jeff Garvin from the United States Secret Service; Chief Zerba 
from the city of Wilmington; Chief McGowan from the New Castle 
County Police; Chief Collins from Selbyville; Chief Tjaden from 
Delaware City; Sheriff Trinidad Navarro; and Kurt Reuther, 
representing Secretary Schiliro of the Delaware Department of 
Homeland Security. And I believe, also, Representative J.J. 
Johnson.
    Please, if you would, a round of applause for all the folks 
who have joined us here today to be a part of this field 
hearing.
    [Applause.]
    Senator Coons. I would also like to thank the distinguished 
panel of witnesses who have come here today to share with us 
their experience through the years of policing and justice 
assistance. They have much to teach us about how State and 
federal law enforcement can work together to make levels of law 
enforcement from federal to State to county to local much more 
effective and collaborative as they work together and share 
intelligence and resources.
    I wanted to hold this hearing here in Delaware because our 
State has a strong history of working together with its federal 
partners to deliver safer communities for our citizens. We have 
a lot we can be proud of.
    When I mention the topic of federal assistance to local law 
enforcement, one of the first things people think of is the 
number of police hiring programs, first established in 1994 
through legislation authored by then-Senator Joseph Biden, some 
known as COPS programs, but under many different names over 
many years.
    This legislation has provided state and local police with 
the funding they need to hire or retain officers who would 
otherwise have to be let go due to budget challenges.
    Also, since the passage of the Violent Crime Control and 
Law Enforcement Act of 1994, federal funding has created or 
helped save 486 police officer positions in our State of 
Delaware, certainly one of the signature federal-local 
partnerships.
    Less visible than federal funding assistance, but no less 
important, is the dramatic change by the FBI and State and 
local police and how they work with one another. 9/11 taught us 
that the old way of doing business, when each police 
department, law enforcement, or intelligence agency acted as an 
island unto itself was counterproductive and, indeed, in the 
context of 9/11, even dangerous.
    Building off the lessons of the attacks of 9/11, Delaware 
police and their federal partners have created a system of 
collaborative policing that builds on the strengths of each. 
State and local police remain at the front line of law 
enforcement, protecting our communities. Their greater numbers 
and familiarity with the communities in which we live and in 
which they serve make them ideally suited to carry out their 
critical public safety and policing missions.
    Being a small State, Delaware's police face unique 
opportunities and challenges. Delaware's size lends itself 
naturally to a closely knit, highly adaptable law enforcement 
community. At the same time, many of our police departments, 
particularly some of our municipal departments in the southern 
part of the State, are small and, as a result, can at times 
lack the resources needed to develop highly specialized 
techniques or units that might be needed to deal with organized 
crime or other relatively rare serious crimes that have serious 
consequences.
    In addition, Delaware, particularly in its northern region, 
may find itself a victim of crime that has its roots out of 
state in our region, where Delaware police lack the authority 
to investigate crimes or make arrests.
    Meeting these challenges requires real collaboration with 
our federal partners. The FBI is this Nation's largest law 
enforcement agency, with a strong tradition of taking on the 
most serious criminal threats posed to this Nation.
    The FBI has national jurisdiction and is able to act across 
State lines. The FBI also has a core mission of national 
security and counterintelligence.
    Through its working relationships at the federal level with 
the NSA, CIA, and DHS, FBI has access to an unparalleled trove 
of information regarding both terrorist threats and criminal 
threats. While the FBI's resources are tremendous nationally, 
there are only 23 full-time FBI agents here in Delaware 
compared to the more than 2,000 full- and part-time State and 
local police officers confronting the nearly 96,000 serious 
crimes in Delaware each and every year.
    FBI's Delaware profile is small in proportion to the total 
threat. This has led the FBI to rely on Delaware law 
enforcement as a force multiplier and Delaware law enforcement 
to rely on the FBI and other federal partners as key sources of 
information and resources in the fight against crime.
    In the context of national security, FBI leverages local 
authorities by sharing classified threat intelligence with 
local police chiefs through monthly policymaker briefings, the 
Delaware Information and Analysis Center, or DIAC, and the 
Joint Terrorism Task Force.
    By sharing this information, the FBI is able to gain 
thousands of eyes on the street and the front lines of homeland 
security. As we saw in New York following the Times Square 
bombing attempt just last year, State and federal law 
enforcement have significantly improved the flow of information 
between them in both directions.
    Intelligence-led policing, similarly, benefits our National 
security and relies on effective communication and 
collaboration between Federal, State, and local law enforcement 
and our National security agencies.
    With intelligence-led policing, law enforcement agencies 
use crime data and computer modeling to predict crime and make 
better use of their available resources.
    The data and reports that intelligence-led policing creates 
have the potential to be of enormous value to the 
counterterrorism mission as well, but only if that data can 
make its way from State and local police departments to the 
federal national security agencies.
    So overall, the goal of this hearing is to examine how well 
federal and local collaboration, including both information-
sharing and funding support, is working using Delaware as a 
model. We will examine Delaware's fusion center, which serves 
as the information and analysis nerve center, for information 
at every level that affects Delaware's public safety.
    We will also examine the use of joint task forces which our 
local police and federal partners have established to bring a 
merged operational focus to counterterrorism, as well as to 
keeping our streets safe from gangs, drugs and guns.
    We will also look at formal information-sharing 
arrangements. While Delaware's small size and the much-vaunted 
Delaware way of doing business have helped allow Delaware to 
innovate in these informal partnering arrangements, they can 
also serve, I believe, as models for States of any sizes.
    I am delighted to be joined here today by our Committee's 
Chairman, Senator Leahy of Vermont, and by our distinguished 
panel of witnesses.
    Chairman Leahy, himself four times elected to a 
prosecutorial position as State's Attorney for Chittenden 
County in Vermont, is the only Democrat ever elected to the 
Senate from the State of Vermont, has served now 36 years, was 
the youngest elected Senator in Vermont history when elected at 
the age of 34, has made landmark advances in protecting our 
entire Nation through his leadership on the Judiciary 
Committee, and he does all of us a great honor by joining us 
here today.
    Chairman Leahy.

STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Chairman Leahy. Thank you very much, Senator Coons.
    I wanted to come here because, as you heard just from his 
opening statement, Senator Coons has such a great grasp of what 
the issues are in something like this. I rely on him a lot. He 
has chaired a number of significant hearings in the U.S. Senate 
and does it in a way that it makes a difference.
    I think his strong commitment to supporting state and local 
law enforcement comes across very, very well. And one of the 
reasons I had urged him--when he came to the Senate, I urged 
him to come on the Senate Judiciary Committee. I said, ``We 
have areas we can work with State and local and federal law 
enforcement. For me, it is a passion, and you can be very 
helpful.'' And he agreed and came there.
    So then the last time I was in this city, I was with 
another Senator from here, but he left to take a job with the 
executive branch and found a better way to travel than taking 
the train every day like he used to.
    [Laughter.]
    Chairman Leahy. I found the train great coming up here 
today.
    But we are going to hear how our federal and State law 
enforcement work together to keep our streets safe. Interagency 
coordination and information-sharing, especially today, is more 
important than ever. We had the so-called Christmas Day bomber 
attempt to detonate an explosive on the flight in 2009, and our 
intelligence agencies knew his identity, but the information 
had not been passed out. So he was not on the watch list.
    Fortunately, it failed to detonate or all the people flying 
to Detroit that day would have died. And I agree with President 
Obama that that was a systemic failure. I was pleased to see 
the Administration work very quickly to fill those gaps.
    But we have to do this all the time to piece together the 
information we have. The local police, the State police, the 
federal authorities, there is a lot of information there and, 
as you all know, those of you who handle criminal cases, you 
know sometimes the case only gets solved when all those little 
pieces are put together.
    But I think that, also, continuing federal support for 
State and local law enforcement is extremely important. The 
Congress is focused on how to continue the economic recovery. 
One effective way to both protect our citizens and create jobs 
is to bolster federal resources for State and local law 
enforcement.
    When neighborhoods become safer, property values rise, 
local economies prosper. That has happened everywhere. Now, 
like Vermont, Delaware is a small State, where neighboring 
jurisdictions are close by and States are close by, and 
cooperation and interoperability are especially critical among 
State and federal partners.
    My attention to information-sharing and law enforcement 
safety was shaped significantly by the Carl Draga incident in 
Vermont and New Hampshire. Right along the border of our two 
States, in August 1997, four people were killed, including two 
New Hampshire State police officers. Three other law 
enforcement officers were wounded, one grievously.
    This is indelibly in my mind. The Director of the FBI at 
that time, Louis Freeh, by coincidence, was staying at our home 
in Vermont. And it was interesting to watch how everybody came 
together, but we also saw how we had information-sharing 
deficiencies. We had radios that could not talk to each other. 
We had the lack of bullet-proof vests.
    So it made the work of these incredibly brave police 
officers that much more difficult. We acted very quickly, and 
Senator Judd Gregg, a senior Republican from New Hampshire, and 
I got together. We passed legislation to provide funding to 
State and local law enforcement to create communications 
interoperability.
    Senator Ben Nighthorse Campbell of Colorado and I passed 
the Leahy-Campbell bill, which provided thousands and thousands 
of bullet-proof vests around this country ever since then.
    So I have never lost sight of how important this is. It is 
one of the best investments we can make in Congress, because 
crime dramatically affects communities across the country, 
bigger cities like Wilmington to smaller towns like those in 
Vermont and Delaware, my own town of 1,500 people.
    We have to do what we can to assist the States and 
communities.
    Senator Coons, one, I want to thank you again for doing 
this, but I also want to thank everybody who has come here on 
the panel. I suspect every one of you has a million other 
things you could be doing today. This is actually very helpful, 
because if we are going to pass legislation, it gives the two 
of us the chance to go to other Senators in both parties and 
say, ``Here is what we heard.''
    So thank you. Thanks, Chris.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Coons. Thank you, Chairman Leahy.
    As you can tell, someone with his role as both an 
authorizer and an appropriator in federal law enforcement-
related activity and with his long experience and intense 
interest is a tremendous resource and ally for us as we try to 
learn from this panel of distinguished witnesses today and as 
we move forward.
    So, now, I would like to ask the witnesses to stand. Raise 
your right hand and repeat after me.
    [Witnesses sworn.]
    Senator Coons. Thank you. Let the record show the witnesses 
have taken the oath and been duly sworn. Please be seated.
    Now, we will proceed with witness introductions and 
testimony, beginning with Special Agent McFeely.
    Richard McFeely was appointed in August 2009 as special 
agent in charge of the FBI's Baltimore division. Agent McFeely 
entered on duty as an FBI special agent in February 1990.
    Upon completion of training, he reported to the Buffalo 
division, where he primarily worked in violent crime and street 
gang matters. He served as a lead Buffalo division case agent, 
investigating the Oklahoma City Federal Building bombing in 
1995, in part, because the perpetrator was western New York 
resident Timothy McVeigh.
    In 1997, he received the New York Bar Association's Tribute 
to Valor Award for dismantling a violent street gang that 
terrorized the citizens of Buffalo.
    Special Agent McFeely received his first supervisory field 
assignment in 1999, supervising a drug squad at the Washington 
field office. Following the 2001 attack on the Pentagon, he was 
assigned the FBI's on-scene commander, with responsibility for 
recovery of evidence and remains.
    Following that assignment, Mr. McFeely supervised a 
Washington field office counterterrorism squad, working 
extensively with State and local and federal agencies. He was 
instrumental in setting up a joint intelligence center in 2003 
with the Fairfax County Police Department and other local 
agencies in an effort to increase the information sharing that 
is exactly our focus today.
    In 2005, he received the Director's Award for his 
outstanding counterterrorism investigation for his efforts in 
supervising a multinational investigation into an assassination 
plot against a foreign Head of State.
    Mr. McFeely has strong Delaware roots as well, having 
earned his B.S. degree in criminal justice from the University 
of Delaware in 1985 and a J.D. from Delaware Law School in 
1989.
    He is married, has three children, has resided in the 
Annapolis area for more than 13 years, and he honors us by his 
testimony today.
    Mr. McFeely, please proceed.

STATEMENT OF RICHARD MCFEELY, SPECIAL AGENT IN CHARGE, FEDERAL 
   BUREAU OF INVESTIGATION, BALTIMORE DIVISION, BALTIMORE, MD

    Mr. McFeely. Thank you, Senator. Good morning, Chairman 
Leahy, Senator Coons, distinguished guests.
    Senator Coons, I'll start right off by saying that your 
opening statement was spot on.
    I appreciate the opportunity to be here today to discuss 
probably one of the single most important issues facing the 
FBI, and that is exactly how do we get the information pushed 
out to our State and local law enforcement partners that's 
going to keep this country safe.
    As you look down the long road that the FBI has traveled 
since 2001, I believe you will see certain milestones that have 
defined significant accomplishments in both our philosophy and 
our actual capabilities on information sharing.
    But I don't want to paint the illusion that we have reached 
the end of the road. We are driving a vehicle that must not 
only be driven faster, but at the same time, stay between the 
guardrails as to what we are legally permissible to share.
    The FBI has formalized a strategy that provides a 
foundation to shape and implement numerous information-sharing 
initiatives with our many mission partners, federal, State, 
local, tribal, foreign governments, and private-sector 
stakeholders, while, at the same time, protecting privacy and 
civil liberties of our citizens.
    Given the unprecedented threat against our homeland by 
terrorist groups, I want to highlight this area first, 
especially since there is no other area that I can think of 
that has galvanized and inspired law enforcement to come 
together and share everything that we have in order to keep our 
country safe.
    Since I oversee FBI field operations in Delaware and 
Maryland, I'm going to discuss specific initiatives relative to 
these two States. However, what I'm describing has been 
mirrored across the country.
    First and foremost, in order to be effective as one law 
enforcement community, our partners must be educated to the 
threat. To do this, they must have access to the same 
information that I see every day as part of my daily threat 
briefing.
    We accomplish this most effectively through the 
partnerships of the joint terrorism task forces, the JTTFs. 
Between my two States, I have over 50 federal, State and local 
police agencies assigned to our JTTF squads. In these task 
forces, individual agency emblems are left at the door. All 
members of the JTTF have access to the exact same information 
that FBI special agents have, up to the highest classified 
level, and cases are opened and assigned regardless of 
individual agency affiliation.
    In fact, one of my Maryland JTTF squads is actually run by 
a Maryland State Police sergeant. But having a cleared police 
officer have access to classified threat information without 
the ability to share that to his or her chief is not a good 
model for us to address the local threat and certainly not a 
good model for that officer to get promoted.
    Towards that end, I have offered secret clearances to all 
chiefs and sheriffs within Delaware and Maryland. Many have 
taken me up on this offer. These policymakers are then given a 
classified threat briefing at least once a month on what the 
global terrorism picture is.
    We discuss everything from the types of threats, who is 
making the threats, and what is our response to those threats, 
which often involves their police agencies.
    But I do believe that the real success story in Delaware 
and Maryland has been through the cooperative nature of the 
State-run fusion centers. While we have a long way to go 
nationally, I think that the models for these fusion centers in 
these two States are simply that, a model to be followed.
    Recognizing that no one knows a community better than local 
law enforcement, in both States we have devised a program where 
all suspicious reporting from the general public, such as tip 
lines, or from the cop on the street who's making a road stop, 
all those leads are first sent to the fusion centers for 
database checks and initial vetting.
    While these leads are then entered into the FBI's Guardian 
system at this juncture, in both States and in most cases the 
initial investigation is actually conducted by a State or local 
police officer or trooper assigned to what we call the Guardian 
Threat Squad.
    This model allows police officers and troopers who already 
know their communities to best assess whether the activity 
that's being reported on needs further follow-up.
    Through policymaker briefs to the chiefs and direct lead 
dissemination to the officers and troopers on the street, we 
have effectively sandwiched our police partners right in the 
middle of a top-down/bottom-up sharing of information. And in 
this manner, as you pointed out in your opening statement, we 
have just forcefully multiplied the eyes and ears of the FBI by 
thousands of police officers in both States.
    I also want to briefly discuss virtual command center, or 
VCC. The VCC is an unclassified software application that's run 
on the FBI's Law Enforcement Online, or LEO. It's used by the 
FBI to share important information during a time of crisis.
    It allows us to instantly share critical data to remote 
users that now don't have to physically show up in order to get 
updated information. We can share data across a wide range of 
users, including first responders, emergency planners, and 
anyone in a crisis management coordinating role.
    Moving toward our broader information-sharing posture, I 
want to just briefly discuss the sharing of actual case data. 
We do this through the National Data Exchange, or N-DEx. N-DEx 
is a national criminal law enforcement information-sharing 
system available through LEO and other Web-based means to law 
enforcement and criminal justice agencies.
    It provides law enforcement agencies with a powerful 
investigative tool to search, link, analyze, and share criminal 
justice information on a national basis to a degree never 
before possible.
    N-DEx serves as a repository of information contributed by 
State, local, tribal, federal law enforcement agencies, 
including all of the DOJ entities, DEA, the U.S. Marshals 
Service, ATF.
    Data currently consists mostly of incident and arrest 
reports, but eventually it will include booking, incarceration, 
parole, probation, and other types of information. N-DEx allows 
any agency to contribute and share law enforcement information 
with any other agency that has access to the Internet.
    Currently, there are 8,000 registered users and a total of 
101 million records by 23 major local, State, regional and 
federal criminal justice agencies. Delaware is a signatory to 
the N-DEx.
    In conclusion, the days of the FBI seeking to close hold 
information are long gone. The bulk of our agent and analytical 
core have been hired since 2001. The only FBI that they know 
stresses the importance of pushing out information to those 
that need it.
    But while we have made great strides, we have a long way to 
go. There are still many disparate databases that don't talk 
with each other. Information coming from our partners in the 
intelligence community often is restricted, which makes sharing 
difficult. These restrictions aren't random. They are used and 
put in place to protect the sources and methods that were used 
to collect that information.
    Because the FBI wears the Nation's dual hat as an 
intelligence and a law enforcement agency, we are often caught 
in the middle of how to effectively share in these situations.
    And, finally, we must constantly balance our need to share 
with who should know. As collectors of very sensitive 
information on our citizens, we must constantly recognize the 
importance of safeguarding this information; not just to 
protect the sources and methods used to collect it, but equally 
important, to safeguard the very same civil liberties we are 
trying to protect.
    These are the guardrails that I mentioned above. We must 
all be safe drivers as we continue down this road.
    I thank you for the opportunity to come and speak to this 
Committee today.
    [The prepared testimony of Mr. McFeely appears as a 
submission for the record.]
    Senator Coons. Thank you very much, and thank you for that 
testimony. And we look forward to having the opportunity to ask 
questions of the full panel.
    Next, we will hear from Colonel Robert Coupe. Colonel Coupe 
was appointed by Delaware's Governor as the current 
Superintendent of the Delaware State Police and, in that role, 
commands roughly 675 troopers and 270 civilian employees.
    Colonel Coupe began his career in 1985 as a patrol trooper. 
Before his appointment as superintendent, he was Commander of 
the Criminal Investigative Unit, which oversaw 13 special units 
comprised of 85 detectives.
    Colonel Coupe was a member of the Tactical Control Unit 
from 1991 to 1995 and served in the DSP Honor Guard from 1988 
to 2008. In 2001, Colonel Coupe also assisted in creating the 
DSP pipes and drums unit and is still a bagpiper with this 
unit.
    Colonel Coupe has an associate's degree in mechanical 
engineering and will complete his bachelor's in criminal 
justice at Wilmington University in December of this year.
    Colonel Coupe is the youngest of 10 children, has been 
married to Pamela Angeline Coupe for 24 years, and they have 
two children, Jocelyn and Tyler.
    Colonel Coupe, please proceed.

  STATEMENT OF COLONEL ROBERT COUPE, SUPERINTENDENT, DELAWARE 
                    STATE POLICE, DOVER, DE

    Colonel Coupe. Thank you. Good morning, Chairman Leahy, 
Senator Coons. Thank you for this opportunity.
    Prior to the current increased emphasis on information and 
intelligence sharing following the events of 9/11, such formal 
coordination between federal, State and local law enforcement 
agencies in Delaware was limited, at best.
    While departments would occasionally share case data, there 
was not a formal practice and was more of dependent on 
friendships between individual investigators. Such information 
or intelligence was considered proprietary of whatever agency 
had collected it and it was not disseminated to neighboring 
jurisdictions on a regular or consistent basis.
    There were no shared intelligence data bases, and most 
intelligence collection records were kept in a file drawer. 
These practices were considered normal prior to the rise of 
intelligence-led policing, which has evolved post-9/11.
    Generally speaking, law enforcement agencies did not 
consistently have access to critical intelligence necessary to 
investigate criminal cases across jurisdictional lines or 
between the federal, State and local levels.
    Currently, the flow of information between federal, State 
and local agencies has greatly improved with the establishment 
of formal interagency relationships between federal liaisons 
and fusion centers.
    For example, the FBI's Joint Terrorism Task Force, or JTTF, 
provides a formal structure for sharing of investigative 
details for criminal investigations or for threat streams under 
the umbrella of counterterrorism.
    State and local law enforcement officers are now provided 
with timely information from a variety of sources, including 
federal, State and local partner agencies, to facilitate both 
day-to-day operations and long-term investigations.
    Delaware Information and Analysis Center, or DIAC, is the 
State fusion center for Delaware, utilizing sworn officers, 
intelligence analysts, and liaisons from federal partner 
agencies to develop intelligence products for a variety of law 
enforcement and civilian agencies.
    The DIAC was created in the spring of 2005 and it serves as 
a conduit and a filter for intelligence and other information 
for the Delaware State Police, as well as federal, State, and 
local partner agencies, both law enforcement and civilian.
    The DIAC is proactive at reaching out to partner agencies 
and in disseminating intelligence in a fast, efficient manner 
using a variety of products.
    There are several federal agencies that are represented at 
the DIAC. The Department of Homeland Security, or DHS, has one 
intelligence officer working at the DIAC. His primary 
responsibility is to serve as the liaison between the DIAC and 
federal agencies, as well as to assist in providing real-time 
situational awareness.
    Federal Protective Service, FPS, has one special agent 
working part-time at the DIAC. Her primary responsibility is to 
facilitate the flow of information between the DIAC and FPS 
regarding crime, First Amendment protests, and other activities 
occurring in proximity to federal facilities, as well as to 
send any pertinent federal information to the DIAC.
    Bureau of Alcohol, Tobacco, Firearms and Explosives, ATF: 
There is one analyst working at the DIAC. His primary task is 
to assist with iTrafficking, which is a crime intelligence-
sharing pilot program undertaken by the International 
Association of Chiefs of Police, ATF, and the Bureau of Justice 
Assistance. It is currently operational in New Jersey and 
Maryland is being developed in Delaware, New York, and 
Pennsylvania.
    The Federal Bureau of Investigation, FBI, provides 
information and analytical support to the DIAC via the JTTF. 
The FBI and JTTF also provide secret-level monthly meetings to 
law enforcement and executive personnel, as mentioned by SAC 
McFeely.
    In addition, the Delaware State Police and local police 
departments have officers assigned to work with Drug 
Enforcement Administration, DEA, U.S. Marshals Service, and ATF 
in a task force model. This facilitates operational 
coordination and information sharing across jurisdictional 
lines.
    While the DIAC has been successful in developing important 
partnerships with the previously mentioned federal agencies, 
there is still work to be done at the local level. The DIAC is 
focusing on providing greater intelligence support to county, 
city, and local law enforcement agencies in Delaware, while 
improving its crime mapping capabilities to meet the needs of 
law enforcement agencies in the State as they move toward 
intelligence-led policing.
    The DIAC is also increasing its outreach to non-law 
enforcement first responders, such as its intelligence liaison 
officer program with the fire service in Delaware.
    In addition, we are hoping to increase the participation 
for the use of the Memex intelligence data base that is 
maintained by the DIAC. It's utilized by all local and State 
law enforcement.
    We believe there is a promising future. We believe that the 
new culture of intelligence sharing has been established in law 
enforcement, and that spirit of cooperation presents a 
promising future of success.
    Two simple but significant examples of that success are as 
follows: On January 7, 2009, the DIAC released a special 
information bulletin regarding an unidentified bank robbery 
suspect. The Dover Police Department contacted the Delaware 
State Police later that morning with a possible name of the 
suspect and that identity was confirmed several hours later by 
the State Bureau of Identification using a fingerprint that was 
found on the bank note.
    Similarly, on May 18, 2011, the Delaware State Police 
homicide unit was investigating a murder that occurred in a 
motel located just outside the city of Wilmington. Two suspects 
were identified, but their whereabouts were unknown and they 
had no permanent address.
    Investigators contacted the DIAC to request a 
multijurisdictional alert to be sent to law enforcement 
agencies within the region, as well as the fusion centers in 
the neighboring States.
    The resulting special information bulletin was quickly 
disseminated to the targeted law enforcement agencies and 
within 24 hours of the bulletin's issuance, patrol officers 
within the city of Wilmington, working for the city of 
Wilmington Police Department, located and apprehended both 
suspects as they stood on a city street, having recognized them 
from the bulletin. They also recovered a knife that may 
possibly be the murder weapon used in the crime.
    We are grateful for this opportunity to address the panel 
and we're grateful for your support and we look forward to your 
continued support.
    Thank you.
    [The prepared testimony of Colonel Coupe appears as a 
submission for the record.]
    Senator Coons. Thank you, Colonel Coupe. We will next hear 
from Chief Robert Hosfelt. Chief Hosfelt was hired as a 
patrolman for the city of Dover in September 1988, was promoted 
to patrolman first class, corporal, sergeant, lieutenant, 
captain, and then ultimately deputy chief in 2009.
    During his career, Chief Hosfelt has served in the patrol 
unit as a section leader, and in the criminal investigations 
unit, serving as a detective in both drugs, vice and organized 
crime, as section leader and as unit commander. He served in 
the special enforcement unit in the motorcycle section as a 
section leader and has served in the planning and training unit 
as a drill instructor for the Dover Police Academy and as a 
firearms instructor.
    He has held the positions of operations division commander 
and public information officer. He served on the special 
operations response team for 20 years, and during that time was 
both team leader and ultimately team commander.
    Chief Hosfelt is a 1979 graduate of the Allegheny High 
School in Cumberland, Maryland, and holds an associate's degree 
in criminal justice from Delaware Technical and Community 
College.
    Chief Hosfelt served in the U.S. Air Force from 1980 until 
1987 and is a 2010 graduate of the FBI National Academy in 
Quantico, Virginia.
    Chief Hosfelt resides in Dover with his wife, Sherry, 
daughter, Jenna, and son, Jacob.
    Chief Hosfelt, thank you for testifying today. Please 
proceed.

  STATEMENT OF JAMES HOSFELT, CHIEF, DOVER POLICE DEPARTMENT, 
                        DOVER, DELAWARE

    Mr. Hosfelt. Thank you. I appreciate the opportunity.
    In 1988, when I began my career in law enforcement, there 
didn't seem to be much in the way of information sharing. Then 
it was a matter of protecting your interests and it was 
believed the best way to do this was not to share information.
    We, law enforcement, were more concerned about 
jurisdictions and protecting what was ours than looking at the 
bigger picture and what was best for everyone.
    Fortunately for everyone, this appears not to be the case 
now, and I believe our specialized units have helped lead the 
way in this change. From my perspective, different drug units 
and SWAT teams from local and State law enforcement agencies 
began working together out of necessity.
    They pooled their resources to accommodate long-term 
investigations. This not only led to the increased information 
sharing but also to increased training with other agencies as 
well.
    Over the course of my 23 years with the Dover Police 
Department, technology, in my opinion, has had the greatest 
impact on information sharing among local law enforcement, 
State, and federal partners.
    Twenty years ago, a police officer was dispatched to a 
complaint, completed a handwritten report, turned it in to his 
supervisor, who then sent it to a records division, where it 
was stored unless it was asked for.
    Now, officers are dispatched to a complaint either through 
a computer or via radio. They complete a computer-based police 
report and LEISS, which is then available for everyone having 
access to the system Statewide. The same is true for arrest 
warrants.
    Statewide information and intelligence sharing has 
increased significantly because of the Delaware Information 
Analysis Center. This fusion center is the key component of 
information sharing of criminal intelligence and supports 
Statewide law enforcement investigations.
    The success of DIAC is largely due to the information 
support it receives not only from State agencies but also from 
our federal partners alike. In other words, you get out of it 
what you put into it.
    I can think of no greater example of information and 
intelligence sharing for the State of Delaware than the Dover 
Downs International Speedway. Twice a year, Dover Downs hosts 
NASCAR events involving all three major racing series. On a 
normal day, the population of the city of Dover is believed to 
be about 40,000. On these two weekends, it rises to well over 
300,000 people.
    Following the tragedy of September 11, 2001, the NASCAR 
race at Dover Downs was the first major sporting event to be 
held in the Nation. The success of that weekend and all those 
following is because of the teamwork among a private business, 
federal, State and local law enforcement agencies.
    The joint operations center, the JOC, is a hub of activity 
every race weekend, involving the collaboration of information 
being shared by the Dover Police Department, Delaware State 
Police, and the Federal Bureau of Investigation.
    The FBI has become a significant partner in the 
information-sharing business. Currently, the FBI hosts a 
monthly information-sharing meeting, known as the policymakers 
briefing. This is held at Dover Air Force Base.
    Senior law enforcement officials throughout the State and 
with the appropriate security clearance are invited to attend 
the briefing, where terrorism information is passed on to us at 
a local level. Additionally, the Dover Police Department and 
the FBI have entered into a training agreement where we provide 
the training location and they supply the instructors for a 
wide variety of law enforcement-related subjects.
    The Bureau has also provided funding for technical upgrades 
to our existing facility to support these training efforts. To 
this date, one class involving search and seizure has been 
taught and others covering various law enforcement subjects are 
planned.
    Select officers throughout the State of Delaware are given 
the opportunity to attend the FBI's National Academy. This 
intensive 10-week course provides executive law enforcement 
training, as well as a unique networking system, because each 
session hosts approximately 250 students throughout the Nation, 
as well as the world.
    Because of the relationships formed during the session, the 
information is shared by classmates throughout the Nation and 
beyond far after graduation.
    Currently, the Dover Police Department has two police 
officers assigned full-time to the Drug Enforcement 
Administration task force in Dover. This has been an ongoing 
relationship since the mid 1990s and it's one we value very 
much.
    It is our belief that about 85 percent of our violent crime 
in Dover is tied to illegal drugs. The DEA brings to the table 
so much in the form of manpower and funding that helps us 
continue long-term investigations.
    As chief of a 93-man department, I could never afford to 
fund a long-term investigation involving wiretaps and 
surveillance. But because of the resources that the DEA brings, 
both manpower and funding, I am able to conduct these types of 
investigations. The obvious result of any investigation is the 
arrest of those involved. But what comes with that is the 
seizure of money, property, and vehicles once owned by those 
arrested.
    As you well know, 80 percent of all assets seized during 
these investigations come back to local law enforcement 
agencies involved in the investigation.
    This is significant and provides the Dover Police 
Department with additional funding to support equipment 
purchases and training initiatives, which ultimately come back 
to support the fight against the illegal drug trade.
    One recent example: With the support of the DEA and the 
Delaware State Police, and the Dover Police Department, we are 
in the final stages of a major investigation involving illegal 
prescription medication. Thousands of pills have been brought 
into the Dover area by this identified group, which extends 
over 1,500 miles away.
    Because of the long arm of the DEA, we have been able to 
arrest the dealers in my area, as well as the supplier several 
States away. The case is expected to result in the seizure of 
millions of dollars in money, property and vehicles, all of 
which will help support our ongoing efforts to combat illegal 
drugs.
    The United States Marshals Service and their fugitive 
recovery team have been of great assistance to the Dover Police 
Department over the course of the last few months. On two 
separate occasions, the Marshals task force has responded to 
Dover and assisted in the recovery of two subjects wanted on 
several felony charges.
    The first subject was a known felon and was, again, wanted 
on several charges relating to receiving, possessing and 
concealing stolen firearms. The second subject was wanted in 
connection with the ongoing rape of a 10-year-old female. On 
both occasions, it was believed that the subjects were staying 
in the area, but could not be located without the assistance of 
the Marshals task force and the specialized equipment they 
bring to the table.
    It is not just these federal agencies described above who 
assist us. There are several other examples, such as the ATF 
supplying a sketch artist, which helped our criminal 
investigation unit with a long-term burglary investigation; the 
Secret Service conducting polygraph examinations; or ICE 
helping with counterfeit merchandise and trademark violations 
at Dover Downs.
    With any program, there is always room for improvement, but 
the collaboration between federal, State and local law 
enforcement in Delaware has to be an example for others to 
follow. I believe the size of our State has a lot to do with 
that and allows for direct communications at events such as our 
policymakers briefing with the FBI and our Delaware Police 
Chiefs Council meetings.
    The Dover Police Department is also grateful for the 
funding supplied through the COPS hiring program. As a result 
of this funding, Dover Police Department was able three 911 
dispatchers in 1997, four law enforcement patrol officers in 
2002, two school resource officers in 2004, and one additional 
patrol officer in 2009. All those hired under the COPS program 
are still employed and working full-time for the Dover Police 
Department.
    Has this public funding led to measurable public safety 
improvements? Without a doubt. During each of the last five 
years, I have seen a significant increase in the number of 
complaints assigned to my officers and without the support 
received through the COPS program, my department's ability to 
provide quality public service would have been diminished.
    The addition of these officers has given the Dover Police 
Department the flexibility to reallocate manpower, to address 
specific problems in high-crime areas. It has allowed us the 
option of adding officers to the criminal investigation and the 
drug unit to support the growing trend of violent crime and 
gang activity in my city.
    In closing, I leave you with this. The cooperation between 
federal, State and local law enforcement continues to have a 
positive effect on crime in our communities. The benefits are 
obvious to those in law enforcement and have helped them 
improve the quality of life for the residents of Dover.
    It is vital that this cooperation between law enforcement 
agencies continue, and I urge your continued support through 
funding sources such as the COPS program.
    Thank you.
    [The prepared testimony of Mr. Hosfelt appears as a 
submission for the record.]
    Senator Coons. Thank you, Chief Hosfelt.
    Next, we will hear from James Burch. Jim Burch is Deputy 
Director of the Bureau of Justice Assistance in the Office of 
Justice Programs in the U.S. Department of Justice, where he 
has served for 17 years.
    Mr. Burch is responsible for overseeing VJA's efforts 
designed to improve leadership in criminal justice policy and 
to provide services and resources to State, local and tribal 
law enforcement and criminal justice agencies to improve our 
National justice system.
    VJA is the largest of OJP's components, responsible for a 
budget of approximately $1.5 billion, an average of 11,000 
grant projects each year, and sponsoring roughly 2,000 annual 
training events reaching roughly 70,000 criminal justice 
professionals.
    During his tenure at VJA, Mr. Burch has led efforts to 
enhance accountability and communications with the field, to 
integrate evidence-based practices into VJA programs and 
resources, and to position VJA to best assist local law 
enforcement in implementing crime reduction and prevention 
strategies.
    Mr. Burch has a master of science in administration from 
Central Michigan University with a focus on administration and 
law enforcement and a B.A. in criminal justice from the 
University of Maryland-College Park.
    Mr. Burch, thank you for joining us, and please proceed.
    Chairman Leahy. If I can just note, all statements will be 
placed in the record in full. So you may want to summarize the 
high points on it, but just so you know, the record will be in 
full.
    Also, on the questions afterward, once you get the 
transcript back and you say, ``What I should have added was,'' 
please do so, because this becomes actually part of the records 
of the U.S. Senate and will be used as we are going forward on 
legislation involving this.
    So do not worry. If you think you leave something out here, 
you are going to get plenty of time to correct the record and 
add to it.
    Thank you.
    Senator Coons. Thank you, Mr. Chairman.
    Mr. Burch.

STATEMENT OF JAMES BURCH, PRINCIPAL DEPUTY DIRECTOR, BUREAU OF 
 JUSTICE ASSISTANCE, OFFICE OF JUSTICE PROGRAMS, WASHINGTON, DC

    Mr. Burch. Chairman Coons and Chairman Leahy, thank you for 
inviting me to be here today. I'm pleased to have this 
opportunity to discuss federal, State and local collaboration.
    VJA's mission--my agency's mission--is to provide 
leadership and services and criminal justice policy development 
to support State and local law enforcement strategies to 
achieve safer communities.
    The resources available are of critical importance to our 
partners, particularly in this challenging economic time. While 
National and most local crime rates remain at historically low 
levels, there are also cities, counties and States that are 
experiencing spikes in certain violent crime. Gang crime 
continues to impact many neighborhoods, and the continuing 
threat of terrorism posed by domestic and foreign extremists 
remains an enduring constant challenge for our homeland.
    Additionally, as all levels of government are affected by 
the economic crisis, we are doing our part to ensure that 
taxpayer dollars are used in ways that are effective and 
efficient, identifying and seizing on cost savings whenever 
possible.
    Effective collaboration and partnerships between federal 
agencies and local justice agencies in investing in innovation 
and evidence-based approaches are key to addressing emerging 
and continuing challenges, especially in this economic climate.
    While VJA's mission is to support State and local agencies 
specifically, partnering with other federal agencies that have 
critical State and local resources is also essential.
    I want to acknowledge the important collaboration emerging 
between my office, the Bureau of Justice Assistance, and the 
Department's Community-Oriented Policing Office, which also has 
critical resources available to State and local agencies, as 
you've heard here today so well.
    Supporting partnerships with local law enforcement is a top 
priority of this Administration and of this Department of 
Justice. In particular, the Administration remains firmly 
committed to the Edward Byrne Memorial Justice Assistance 
Grants Program, or JAG program, administered through what I 
believe is a unique federal, State and local partnership 
approach that allows for leadership and accountability while 
also providing flexibility in local funding decisions.
    The JAG program, which is administered nationally by VJA 
and state agencies such as the Delaware Criminal Justice 
Council, represented here today, is the leading source of 
federal justice funding that can be used in almost any area of 
the justice system.
    The Administration has requested $519 million in funding 
for the JAG program in fiscal year 2012.
    Since 2009, VJA has awarded over $2.9 billion in JAG 
funding across the Nation. This figure includes funding that 
was awarded through the American Recovery and Reinvestment Act. 
Of that, $16 million was awarded in fiscal year 2009 and fiscal 
year 2010 to the State of Delaware and to local eligible 
jurisdictions here within the State. These funds support both 
innovative crime-fighting approaches, as well as basic criminal 
justice operations.
    We also recognize that in addition to funding, training and 
technical assistance is an effective use of public safety 
dollars. As budgets continue to be leaner and our grant funding 
becomes leaner and, therefore, more competitive, our training 
and technical assistance efforts will provide even more vital 
support to our partners.
    We provide training and facilitate expert assistance on any 
criminal justice issue of concern to any local jurisdiction, 
and that goes to any justice organization, not just to those 
entities that receive our funding, but any justice entity can 
receive these services.
    For example, we recently provided training to approximately 
200 law enforcement and corrections personnel in Dover on 
identifying the characteristics of an armed gunman, and that 
was in follow up to training we did in 2007 on similar topics.
    Our training efforts are the underpinning of many of our 
new and innovative programs, including our officer safety 
initiative. Tragically, we have all seen and heard the stories 
about the increased number of law enforcement officers killed 
in the line of duty. In 2010, the statistics saw an increase of 
40 percent over 2009 line-of-duty deaths.
    Since January of 2011, in that short period of time, more 
than 84 law enforcement officers have been killed in the line 
of duty. Our VALOR initiative, which is part of our officer 
safety program, is designed to help prevent line-of-duty deaths 
and ambush-style attacks on law enforcement officers through a 
comprehensive array of training and technical assistance.
    Another key component for us is the Regional Information-
Sharing Systems program, or RISS, which provides secure 
information sharing and other resources for local law 
enforcement. The RISS program is helping us to address officer 
safety by launching a secure officer safety Web site, a 
deconfliction system, an event deconfliction system, to prevent 
inadvertent officer-on-officer incidents, particularly in 
undercover scenarios, and through other resources.
    VJA will continue to work with our law enforcement partners 
to support the critical risk program. Strong information 
sharing is also an important component of this response, as are 
partnerships such as the ones discussed in my written 
testimony, between the FBI, the Department of Homeland 
Security, and through the leadership of the United States 
Attorneys.
    Investing in evidence-based programs is also a priority for 
the President and for the Attorney General. We have been 
working diligently in the Bureau of Justice Assistance and the 
Department of Justice to build a base of knowledge, to 
translate that knowledge into practice, and to otherwise 
promote scientific integrity in the criminal justice work that 
we do.
    Programs such as our smart policing initiative builds on 
the concepts of intelligence-led policing, offender-based and 
place-based policing by replicating evidence-based strategies 
and encouraging new, unique solutions to public safety 
problems.
    Our justice reinvestment initiative is also an example of a 
data-driven approach to help control spending on corrections 
and reinvest savings into more cost-effective strategies. 
Justice reinvestment has shown significant results in 
communities throughout the country, including in Vermont, and I 
am pleased to report that Delaware is now well engaged in this 
initiative, thanks to an impressive group of leaders here in 
the state working through the Criminal Justice Council.
    Chairman Coons and Chairman Leahy, I would like to thank 
you again for the opportunity to participate today. So much of 
the responsibility for crime control falls on the local 
communities, and we are committed to assisting them through 
timely resources and through partnerships.
    Delaware has been a place of great opportunity and will 
continue to be thanks to the collective leadership represented 
here today.
    This concludes my oral statement. I am pleased to answer 
any questions.
    [The prepared testimony of Mr. Burch appears as a 
submission for the record.]
    Senator Coons. Thank you, Mr. Burch.
    Chairman Leahy is going to have to leave us in about 10 
minutes to catch a train back to Washington. I am hoping he 
will get to ask a first round of questions before we do so.
    It is my great pleasure, finally, to introduce Ms. Drew 
Fennell, the Executive Director of the Criminal Justice Council 
of Delaware, just referred to by Mr. Burch.
    Prior to assuming that position, she was executive director 
of the ACLU of Delaware. She began her legal career as an 
employment attorney with Young, Conaway, Stargatt & Taylor; 
received an undergraduate degree in English from University of 
Delaware; and received her law degree with honors from Rutgers 
School of Law in Camden, where she served on the law journal.
    Following graduation, she clerked for Judge Balick of the 
Delaware Court of Chancery, and is admitted to the Delaware 
Bar.
    Ms. Fennell is active in the community and serves on a 
number of boards and was appointed by Governor Jack Markell to 
the Judicial Nominating Commission and served until her 
appointment as executive director of the CJC.
    She received in 2008 the New Lawyers Distinguished Service 
Award from the Delaware State Bar and the 2010 Mary Philbrook 
Public Interest Award from Rutgers School of Law in Camden.
    Ms. Fennell, please proceed.

   STATEMENT OF DREWRY FENNELL, EXECUTIVE DIRECTOR, DELAWARE 
            CRIMINAL JUSTICE COUNCIL, WILMINGTON, DE

    Ms. Fennell. Thank you. Chairman Leahy, Senator Coons, and 
distinguished guests, I am Drew Fennell, Executive Director of 
the Criminal Justice Council, and I'd like to thank you for 
this opportunity to tell you how federal criminal justice 
spending improves public safety on the ground in our State. And 
I'd also like to share with you a little bit about the exciting 
work we're engaged in as part of the Bureau of Justice 
Assistance justice reinvestment initiative.
    The Delaware CJC, Criminal Justice Council, was first 
formed in 1968 and acts as the State administering agency for 
all the funding through the Office of Justice Programs. The 
Council was created by statute and is comprised of 27 criminal 
justice professionals, including six cabinet secretaries, the 
presiding judges of all our State courts, the Delaware attorney 
general, U.S. attorney general, chiefs of the major State, 
local and county law enforcement agencies, as well as three 
community representatives. And our current chair is our 
Lieutenant Governor, Matt Denn.
    Here in Delaware, our communities are safer because of the 
funding we receive through the Office of Justice Programs. In 
partnership with the Federal Government, we're able to ensure 
that Delaware's criminal justice system is fair, efficient, and 
accountable.
    The federal funding we distribute has a real effect in our 
communities. Later today, the Council will vote to award over 
$4 million in federal funding to State and local law 
enforcement, courts, corrections, victims services, and 
community providers united in a common effort to ensure public 
safety.
    We have really worked hard to create a strategic planning 
effort to coordinate resources and prioritize funding for 
efforts to serve populations such as the mentally ill in our 
justice system.
    Earlier this year, the Council funded a mental health 
crisis intervention training for law enforcement and as part of 
the same effort, federal funds support Delaware's mental health 
court.
    In addition, Delaware provides intensive supporting 
services through our mental health courts, which reduces the 
number of days offenders with mental illness spend in our 
prisons and psychiatric hospitals.
    Together, these efforts reduce recidivism, save money, and 
improve public safety.
    Building on our foundation of interagency cooperation and 
strong strategic planning, the Criminal Justice Council 
recently embarked on the first steps of the justice 
reinvestment initiative, funded and supported by the VJA.
    The justice reinvestment initiative is a data-driven 
process designed to allocate and manage criminal justice 
resources in the most cost-effective way to improve public 
safety. This initiative has required enormous commitment from 
our Governor, our courts, legislative leaders, and criminal 
justice authorities. And to succeed, we must continue to 
improve our information-sharing capability, collect and analyze 
criminal justice data, and develop policies and strategies 
based on that data so that we can implement evidence-based 
policies to increase public safety.
    The data analysis and information sharing required by the 
justice reinvestment initiative will augment our already robust 
law enforcement capacity in this area. Our goal is to provide 
information and analysis that will guide decision making at all 
stages of our criminal justice system.
    A strong information-sharing network will allow prevention, 
reentry, juvenile justice, corrections, and the courts to 
respond effectively to the realities of crime in Delaware and 
be certain that their efforts are effective in reducing crime.
    VJA brings more than just funding to Delaware. They also 
bring enormous technical expertise and knowledge of best 
practices. For us, as for many States, the move toward 
evidence-based programs is demanding. But with the commitment 
of our State's leaders and support from our federal partners 
and funding from your Senate, we are making excellent progress.
    We are in the beginning stages of important work, and I 
look forward to briefing you in the future about the fruits of 
our efforts.
    Thank you for your time.
    [The prepared testimony of Ms. Fennell appears as a 
submission for the record.]
    Senator Coons. Thank you very much, Ms. Fennell. Thank you 
to the entire panel for your testimony.
    As I mentioned, Chairman Leahy needs to depart soon for a 
train to Washington, and I would like him to ask the first 
question we ask of this panel today.
    Chairman Leahy.
    Chairman Leahy. Thank you very much. Again, I want to thank 
Chris Coons for doing this. Incidentally, when you hear him 
talk about his concerns for law enforcement, he does not say it 
just here. We hear it a lot in Washington, too. You have a 
strong advocate there.
    In a way, I wish this hearing could be replicated in 49 
other States with what we have heard. And I am just going to 
ask a couple questions.
    I was struck by something, Colonel, that you said, and it 
was also echoed by the chief. You started out basically as 
patrolman--not patrolman, just an officer. And we sometimes 
joked in our State Police that if one of the young officers 
screwed up, they had to walk a beat on the interstate. I never 
actually saw that.
    But what you said about proprietary information, things 
being shared based on friendship and all, I recall those days 
and I recall that concern, and, Chief, you said something 
similar.
    Now, we have 18,000 separate police departments in this 
country. They range from very small departments--the small 
sheriff's department, a small local department--up to the State 
police.
    There is no one-size-fits-all. But I like to think we have 
moved from the days where if you know something, you might tell 
them; otherwise, you do not.
    In an era today, none of us can survive that way. So I was 
pleased by what you said. Do you feel that this has been a 
remarkable change or a good change, an evolving change during 
your time in law enforcement?
    Colonel Coupe. Yes, sir. I would--the last way you phrased 
that, evolving change. We're not there yet. There is still room 
for improvement. But the communication is much better.
    An area that we are still growing in is the automated 
intelligence system. In our State, it's software that's 
referred to as Pemex. And that's for storing criminal 
intelligence, and right now, that's something that we're still 
marketing within the State to get the trust from our local 
partners, that it is okay to put information into there and 
that you still maintain some control of your case, but at the 
same time, you're sharing information.
    And they do that through a pointer system, where if you 
entered information about a particular suspect that you were 
looking at and I were to go in and either get ready to enter 
information on the same suspect or ask about that suspect, 
instead of giving me all the details of your case, it would put 
you and I together. It would point me in your direction.
    And that's a positive movement for law enforcement, because 
there are times where many of our investigations are sensitive. 
So you can't put everything out there. But it is important that 
there is enough out there that we get together and work 
together.
    Chairman Leahy. Chief, what about you? How do you feel?
    Mr. Hosfelt. Well, I agree. Again, the information sharing 
starts at a local level with the State, and then our federal 
partners come in. But to me, 9/11 2001 was the critical stage. 
That's when we realized we had to do a better job of 
information sharing, and it's not just with terrorism activity, 
but it was just criminal information sharing as a whole.
    Chairman Leahy. And you referred to the fusion center, 
which you talked about before. Is that something where the 
Federal Government can help, can bring the various pieces 
together by pieces of all the different law enforcement and 
those involved?
    Mr. Hosfelt. Yes. This is a program that's run by the 
State. It's managed by the State. We share in that information 
gathering and inputting the information into it, and, again, 
that information is shared by our federal and our regional 
partners, as well. They bring information back to us; we bring 
information to them at the fusion center, as it is.
    Chairman Leahy. You probably saw me making some notes here 
earlier. I am thinking of some things that I am going to be 
talking about back home in Vermont.
    Ms. Fennell, we would love to have somebody in Vermont 
announce the amount of money you are going to announce later 
today. I saw some ears perk up in the audience.
    And I liked what Mr. Burch, who has testified before our 
Committee before, talked about, the various programs and the 
sharing. And I think you have seen a major move forward in 
that, and I should compliment Senators who have been there 
before. Former Senator Biden was the one who pushed for that. 
It is something that we have tried very, very hard in the 
Judiciary Committee to authorize and then the Appropriations 
Committee to fund.
    So I am glad to see it. I am glad to see it coming 
together. I think there is nothing worse or nothing could be 
worse than somebody in law enforcement to say we missed this 
person because they knew about it, but the person was in our 
jurisdiction and we did not know about it.
    I understand the fact that you have got some things--if you 
are using investigators, you are using informants or something 
like that, you have to keep these things protected.
    But I am going to leave and I am actually going to read the 
transcript, but I was reading your testimony, Chief, and, 
Colonel, Mr. Burch, Agent McFeely, and Ms. Fennell, last night 
and it gives me--when I compare this to what I was hearing a 
couple decades ago in the Judiciary Committee, you are light 
years ahead of where we were in law enforcement then.
    We have always good, honest, hardworking people in law 
enforcement, but now we have a criminal element and an element 
of terrorism that moves way beyond anything that most of us saw 
in our earlier careers in law enforcement.
    So I applaud you all for doing this. And, Chris, thank you 
for doing this.
    Senator Coons. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you. And I will leave.
    Senator Coons. Folks, can we have a round of applause for 
the Chairman for joining us today?
    [Applause.]
    Senator Coons. The Chairman was sharing with me earlier 
that he wanted me to continue with questions. We discussed 
before the hearing a number of issues that he and I both share 
strong interest in, and we will probably do about another half 
an hour's worth of question-and-answer with the panel, if I 
might, and he will be reviewing the full transcript.
    As he mentioned before, if there are things in either your 
written testimony or in follow-up that you would like to expand 
on, the record will stay open for a number of days so that we 
can end up having a full record that will be shared with all 
the Members of the Committee.
    It is a strong Committee that is very actively engaged in 
oversight and support of all the federal programs that relate 
to law enforcement, as well as intellectual property. I have 
some questions about both of those, if I might.
    I would just follow up on the line the Chairman was 
following there to Special Agent McFeely. The Department of 
Justice, as I understood it from your testimony, is working on 
a next generation data base to link crime reports, N-DEx. And 
can you speak about what that system will mean, how Delaware is 
helping in its creation?
    Chief, I understand that Delaware is unique in that all law 
enforcement agencies in the State are utilizing the same crime 
reporting system. I would be interested in hearing how that has 
helped with information sharing.
    If you would, Agent McFeely.
    Mr. McFeely. Delaware is unique in the fact that they are 
moving to one. There is basically one database that they use to 
collect the information.
    Compare that to Maryland. There are 134 different police 
agencies there, and there are 134 different databases. What you 
need in a situation like that, which pretty much mirrors the 
rest of the Nation, is some solution that is pushed out there 
that (a) is available to police agencies and (b) is free of 
charge.
    This N-DEx that is being pushed out is both of those 
things. It provides anybody with an Internet connection, which 
is most police agencies now throughout the country, the ability 
to do exactly what we are talking about here and exchanging 
real-time case information.
    And there have been numerous initiatives over the years 
that have been put forth. The beauty of N-DEx is that it is 
managed by the Criminal Justice Information Services Division 
of the FBI, which also maintains NCIC and III, as well as all 
the fingerprints and the biometric data that the world 
collects.
    So it is in good hands out there and it provides its robust 
work and already has that linkage through NCIC with every 
police agency in the Nation.
    Senator Coons. Thank you.
    Chief Hosfelt and Colonel Coupe, if you would talk about 
our progress to date in rolling out N-DEx and what you see as 
the major challenges to getting all the agencies in the State 
to fully participate, and what will the benefits be once we get 
there.
    Colonel Coupe. As has been alluded to already by the chief 
and by SAC McFeely, we are unique in Delaware in that we use 
one crime reporting system. That is an automated crime report. 
All that information is stored at DELJIS.
    So in late 2009, early 2010, Delaware was able to agree and 
go online with N-DEx and provide that information to the FBI 
for inclusion in their database and access throughout the 
country.
    So that part is already taken care of for Delaware, and 
because we only had one crime report and one central area of 
storage, we are already 100 percent participating in that.
    Training for Delaware in that program just began in April 
2011. Right now, that has been limited to a small pocket of 
investigators from different agencies and also from the DSP, 
but that training will be expanded on to utilize the system.
    As far as feedback from the use of the system, I don't have 
that today, but I'm told that it has worked. It is providing 
what was requested. The challenge now is to get other agencies 
outside of the State of Delaware to participate.
    As SAC McFeely said, some states are not as fortunate as 
us. So they may have so many different operating systems. It is 
going to take a while until they are all online.
    Senator Coons. So what are the challenges to getting all of 
the law enforcement entities within the State of Delaware to 
participate?
    Colonel Coupe. Right now, because of DELJIS commitment, all 
of their reports are already there.
    Senator Coons. Automatically.
    Colonel Coupe. Now, the part for us is getting everyone 
trained in Delaware to have access to it, which will be--it 
will be helpful for an investigation.
    As was already stated, through NCIC, things like that, we 
can track someone's criminal history in another State, but we 
didn't have access to the crime report.
    But now if you do someone's criminal history, you see a 
particular crime that you're interested in, you could actually 
research and look at the actual investigative report 
information there that may help you in your investigation and 
point you to a particular investigator in another State or a 
particular agency.
    Senator Coons. And to what extent do City of Wilmington, 
New Castle County, DSP investigators that are dealing with 
crime, particularly drug crime that may be regional in its 
origin or gang-related crime, are they hampered by the lack of 
that interconnectivity in the region outside the State of 
Delaware?
    Colonel Coupe. There are challenges there, and I'll let the 
chief speak on that, as well, because he has experience 
directly as a drug investigator. But, yes. Right now, the 
conduit oftentimes is the DEA, that we use them, go through 
them, sharing information, or it's because someone has a 
contact in another State with another agency and you reach out.
    But as far as accessing data bases, that is still a 
challenge. And as Mr. Burch mentioned about RISS and 
deconfliction, there is an effort there to go with a broader 
deconfliction. Right now, we use a system within our State, but 
this would help us broaden that circle within our State and 
outside of our State and the region, and we are working with 
them on that to figure out how to build that infrastructure.
    Senator Coons. That is great.
    Chief Hosfelt, did you want to add something?
    Mr. Hosfelt. The relationship with the DEA is important 
simply because it brings everyone together, whether it's my 
investigators in Dover working with local law enforcement in 
New Jersey because of their connections with the Drug 
Enforcement Administration task force.
    It is not uncommon for us to work cases together. Again, I 
spoke earlier of us working the case several States away, 1,500 
miles away, and we are able to do that because of our 
connection with the DEA.
    In Dover, speaking back to--criminals just don't stay in 
Dover. He may commit a crime in Dover, but he is also going to 
commit that crime in New Castle County or in Sussex County. And 
it may not be--it may be as simple as an investigator reading 
about the arrest of someone in Dover, some crime that we have 
handled or investigated.
    He reads that, he looks into that person because of the 
intelligence and because of the information sharing that we 
have with our reports, the LEISS system and the DELJIS system, 
he can research that person, look at that warrant, find out 
that he is operating the same way in Dover as he has in Sussex 
County, and, again, they can build their case from there and 
that information is immediately available to them once it is 
put into the system by the officer investigating.
    Senator Coons. Thank you.
    Mr. Burch, I was interested in hearing more about what VJA 
has done to incorporate evidence into its programs. We have 
heard that evidence-based policing has been a major change 
across the country.
    Can you talk a little bit more about DOJ's evidence 
integration initiative and how that seeks to facilitate more 
effective partnerships between federal and State grantees?
    Mr. Burch. Yes, sir. I would be glad to do that. And on the 
latter point, some of our funding that we have provided for 
information sharing we have also encouraged agencies to use to 
connect to N-DEx nationally. And so we have provided some 
funding along those lines, as well.
    In terms of integrating evidence into our programs--and for 
those in the audience today, just to clarify here, what we are 
talking about is learning lessons from other places, other 
communities that have implemented similar strategies, 
determining what is most effective at reducing and preventing 
crime, and then showing others how to replicate those 
strategies across the country.
    And so the smart policing initiative is one place where we 
have done just that. And so, for example, fairly close to where 
we are today, in Philadelphia, we funded the Philadelphia 
Police Department to go in and do an experiment with foot 
patrols, foot patrols in high-crime areas or hot spots that the 
city of Philadelphia is dealing with.
    We want to evaluate that approach. We know that it can be 
effective. We want to know why it is effective. We want to know 
how much of it relates to actual positive outcomes.
    We are doing similar work in other places. In Glendale, 
Arizona, for example, we are experimenting with problem-
oriented policing approaches to deal with burglaries. A number 
of communities today are seeing increases in burglaries in 
their communities sand so we want to develop strategies and 
tools that we can give to other departments that they can 
replicate, as well.
    But this is--evidence integration is not something we have 
just limited to our work in law enforcement. We are doing the 
same with drug courts, for example. Drug courts are very 
successful in helping folks avoid incarceration and receive the 
drug treatment that they need.
    We have learned from a recent evaluation about those drug 
courts about exactly what it is that makes them effective. So 
we are now retooling our drug court funding to be even more 
focused on those very specific strategies that can make a 
difference, and we are doing this in areas of prisoner reentry, 
as well, for those that deserve a second chance to make sure 
that we know what can be effective with them and how we support 
them.
    Senator Coons. Thank you.
    I would be interested, Ms. Fennell, if I might, in hearing 
from both you and Mr. Burch about the justice reinvestment 
program. What opportunities do you see for Delaware in 
implementing that, what you think that might bring to our 
community as you try to do your best with limited federal 
resources?
    As someone who has the fortune or misfortune of serving on 
the Budget Committee, as well as the Judiciary Committee, I see 
the increasing challenges our federal budget faces. I am 
pleased to hear Mr. Burch and Special Agent McFeely talk about 
how our federal partners are doing their best to leverage 
resources, to make them go farther. They are trying to learn 
from experiences around the country.
    But, Ms. Fennell, if you would just speak about both--there 
is a mental health court you referenced and the new RPI that 
you referenced. I would be interested in how you think those 
will be successful in making our communities safer.
    Ms. Fennell. Well, let me--I will start quickly with the 
mental health court, because that is something we are well 
underway with. Our Council engaged in a strategic planning 
process, and one of the identified areas of priority was mental 
illness in the criminal justice system.
    It poses a great threat to people in the community and law 
enforcement when there are encounters between people in crisis 
and law enforcement. We have done a lot of training with law 
enforcement, three days with law enforcement, corrections 
officers, and core personnel on how to help people with serious 
mental illness and keep them and the people who are around them 
safe.
    And then to follow that up, with mental health court and 
the kind of supports they are able to provide, with having an 
intense relationship with a particular judge and group of case 
managers to make sure those folks get what they need to stay 
safe and to stay out of jail and to stay out of trouble.
    It is a very tough problem, but one I think our agencies 
really worked very hard to coordinate efforts across the 
justice system.
    Justice reinvestment is a new initiative. We have just 
really started our work with the Institute of Justice through 
the Bureau of Justice Assistance.
    One of the things that it responds to, I think, most 
beautifully is what you just described, limitation of 
resources. There is a really focused effort to try to identify 
those functions that work really well and expend our resources 
on what we know works, both to reduce spending, to reduce our 
corrections population and the spending we spend on that--money 
we spend on that, but, also, to ensure that we have timely law 
enforcement data available to everyone so that we never 
endanger public safety.
    Whenever you're trying to put change into a system, there 
is always a concern that whatever changes you do will have some 
unintended consequences. And one of the things about Delaware 
that I think is really great is the fact that we have this 
unified reporting system.
    We have great access to our data and we can--in ways that 
some other jurisdictions can't--really provide timely feedback 
on how well we're doing.
    Are we spending less money? Are we increasing public 
safety? Are we making our communities both safer and stronger 
by making sure that we are providing the kind of prevention 
resources, reentry resources, and law enforcement resources for 
them to integrate into a good program that makes them safe and 
strong and secure?
    Senator Coons. Thank you.
    Colonel Coupe and Chief Hosfelt, one of the things Chairman 
Leahy referenced was over his decades on the Judiciary 
Committee and, before that, his service as a local prosecutor--
he is well aware of the long tradition, the culture of sort of 
hanging onto the information rather than sharing. And I am 
impressed with the progress we have made in Delaware with the 
DIAC, grateful for the leadership role Special Agent McFeely 
has taken in offering the sort of monthly policymakers 
briefings and extending clearances and coordinating both the 
national security and anti-crime focus.
    What else do we need to be doing in Delaware to continue to 
make progress toward a culture of collaboration, integration 
and information sharing, and what else is there that we 
federally could be doing to help bring resources to that task?
    Mr. Hosfelt. I think as far as federal help, the perfect 
example, nothing more, is our Delaware policymakers briefing 
that we have. It is great information. It is shared at a local 
level. And you, obviously, have to have the proper security 
clearance to hear the information and I think that is 
important.
    And it may also be as simple as--and I will use this--the 
local office of the FBI has two agents assigned to it. Both 
those agents are what I will call, for lack of a better term, 
Dover kids. They grew up in the area. They went to school 
there. They worked as Delaware State Troopers before going on 
board with the FBI in the Dover area.
    So, again, most of us, we grew up together in law 
enforcement. So we have that common bond and communication 
flows freely. We are not protecting it. We understand the big 
picture. Again, we have been working together for so many 
years, I think that is a great help to us in the Dover area.
    Obviously, I can't speak to other jurisdictions, but I know 
in my immediate area, that is of great help to us and just the 
communication is key.
    As far as local law enforcement, I think more trusting and 
I think we are learning to do that as far as the information 
sharing. And, again, I said it earlier, that you get out of it 
what you put into it, and I agree with that. I think that is a 
good statement. It is important for us to get the information 
out there so that we can all work together toward the common 
goal.
    I mean, we say that a lot, but it needs to be done, and I 
think we are doing a much better job of that here lately.
    Senator Coons. I know that both Colonel Coupe and Chief 
McGowan and their respective predecessors worked very hard to 
improve the partnership and the collaboration between county 
and state police.
    Anything else that we could be doing to try and encourage 
that all up and down the chain, city, county, State, and then 
partnerships with our federal friends?
    Colonel Coupe. I think the important thing is the financial 
support that the Federal Government brings. Many of the 
programs that we have success with were established through 
grant funding directly from the Federal Government, through one 
of the programs.
    For example, the fusion center itself was stood up with 
grant funding. Certain positions are still supported, and the 
State has to take on much of that burden.
    So the sustainment of the fusion center is such an integral 
piece in this intelligence network that it is important for 
that support.
    Another example that is not quite as visible, but, again, 
it was created with grant funding, and that is our forensic 
firearms unit, which is a partnernship with the ATF, utilizing 
NIBIN, the National Integrated Ballistics Imaging Network, but 
that was----
    Senator Coons. You cannot have a good law enforcement 
hearing without some new acronyms.
    Colonel Coupe. Some acronyms.
    [Laughter.]
    Colonel Coupe. But it was--the expert that was brought on 
board was initially funded through a grant. He is now a full-
time employee with the State of Delaware, Delaware State 
Police, and that program has many success stories where we are 
talking about sharing intelligence, examining evidence from a 
crime scene, inputting it into the national database, and 
developing a lead based on the sharing of information, 
sometimes within our own State, sometimes outside of the State.
    And, currently, because of the workload that that unit has 
taken on, we have acquired grant funding to hire a contact 
employee part-time to support our expert. But that wouldn't be 
possible without the grant funding that we are getting from the 
Federal Government and the assistance with our own Criminal 
Justice Council here in Delaware.
    Senator Coons. I have two more topics I will touch on 
briefly. Then we will come to a close.
    Intellectual property protection is something that is of 
great importance to Chairman Leahy and to me. Your written 
testimony, Special Agent McFeely, spoke to that, the 
significant work that the FBI is doing in intellectual property 
protection and some of the work that has been done.
    And, Chief Hosfelt, some of your testimony also related to 
Dover Downs. There is actually some counterfeit enforcement 
that needs to be done.
    And, Mr. Burch, it is also something VJA has helped local 
law enforcement strengthen their capacity to do. So I did not 
know if any of the three of you wanted to comment on what you 
see as the biggest challenges and opportunities in partnering 
together to make sure that we protect American intellectual 
property, which, in some ways, is one of our greatest sources 
of exports and of new job creation, something a lot of Delaware 
companies take very seriously, and a number of you have been 
directly involved in important enforcement actions.
    Mr. McFeely, do you want to comment on that?
    Mr. McFeely. I think one of the biggest challenges right 
now is understanding how the cyber threat relates to the loss 
of intellectual property, basically the exfiltration of data 
that companies are investing billions of dollars of R&D, 
research and development, into in this country.
    It used to be, in the old days, if somebody coming to take 
that information involved an insider and whether it was for 
their own proprietary benefit, so they are going to sell it and 
make a profit, or whether it is a hostile country coming in 
here to circumvent our trademark or copyright or intellectual 
property laws, those days are waning; there has been a 
fundamental shift right now. That data can now be easily hacked 
into from places outside the State, outside the city, outside 
the country.
    And I think one of the focuses that really we are looking 
at from the Bureau's standpoint is what is the threat right 
now, how has that shift really taken place, are our resources 
aligned properly to the cyber threat in relation to the 
traditional threat to intellectual property laws.
    Senator Coons. Mr. Burch, as you know, budgets are likely 
to continue to be tight. You face the unique challenge of 
having to deliver sort of the support and the training and the 
resources.
    What more do you think we could be doing to help local law 
enforcement with these IP enforcement challenges when we have 
so much on their plate in terms of just fighting drugs, gangs 
and crime and terrorist threats, National security threats?
    Mr. Burch. I think that the resource question is a big part 
of the challenge here, is how do you ask an agency to take on a 
new task force or an expanded task force mission when the 
budget is already not sufficient to support the core mission.
    I think that, in part, is, as I mentioned, a resource 
issue, but it is also an education issue. There are many 
agencies, such as we have heard from today, that see it at 
places like Dover, understand why it is an issue. And I think 
there is also a lot of us around the country that don't 
necessarily understand how intellectual property crimes are 
linked to economic security, national security, and the safety 
and health of the American public.
    And so this is a top priority of the Administration--to 
address intellectual property crimes, particularly those that 
we see at the street level. I think one of the things that we 
are trying to do through our risk program and through some of 
our funding for intellectual property enforcement is to educate 
all of the criminal justice system about how these IP crimes 
are linked to other kinds of criminal activity, in particular, 
drugs and gangs and organized crime.
    And so that is a mission that we are doing our best to take 
on through the resources of the Pro IP Act, but also through 
our discretionary funding. And so we will continue to work at 
that.
    Senator Coons. As Mr. Burch knows, I am someone who has 
both joined the Pro IP Act and spoken in support of sustaining 
RISS. I agree. We have seen a great deal in the Committee that 
internationally both organized crime and terrorist groups are 
engaging in an unprecedented level of counterfeiting 
pharmaceuticals, aircraft parts, other industrial activity, as 
well as cyber crime, that poses a real threat to our Nation and 
is often underappreciated, and I look forward to working 
together on that enforcement trajectory.
    If I might, Mr. McFeely, just the last two questions. The 
FBI does not currently have a full-time analyst, if I 
understand correctly, at the DIAC and I did not know if you 
thought there might be some benefits to the addition of a full-
time FBI analyst there.
    And I am concerned in what we have heard in both written 
and spoken testimony today about the prevalence of both gun and 
gang activity in Delaware, in Dover and Wilmington and 
elsewhere throughout our State that seems to be coming to our 
State from outside, in our region.
    And I wondered if you thought Delaware might benefit from 
participation in the high-intensity drug trafficking area or 
HIDTA program and whether you thought any elements of our 
community might be successful candidates or potential 
applicants for that program.
    Mr. McFeely. So, certainly, my goal is to get an analyst in 
DIAC. We have done the next best thing from that and basically 
put our FBI systems down there and given access to the analysts 
that are assigned there. But that still is not a complete 
replacement for putting an FBI analyst there.
    In the event that there are additional analytical positions 
appropriated to us next year, it will certainly be one of the 
things that will be in my annual request for resources.
    We have been working that very extensively with our FBI 
headquarters and the FBI is--actually, the special agents in 
charge next week are coming together with the director to talk 
about a fusion center engagement policy down in Quantico. That 
is one of the main topics we will be discussing, understanding 
that in order to really leverage--because I can't agree with 
Chief Hosfelt more that if you build it, they will come, you 
get out what you put into it.
    We have got to have a full-time presence there. So high 
priority for me. I am relatively confident that it will happen 
in the short term.
    Senator Coons. Thank you.
    Mr. McFeely. In terms of the HIDTA designation, I think 
HIDTA is one of the best tools that there is to bring State, 
local and federal resources together. It has been very 
effective. I am not sure how many HIDTAs there are right now, 
but believe there are well over 20 throughout the Nation.
    I am very active in the Baltimore-Washington HIDTA. I have 
seen the success stories day in and day out, including my own 
HIDTA initiatives run by some of my supervisors. We are really 
making a dent in both the violent crime and the drug 
trafficking aspects that go with the drug trafficking.
    So I am a firm supporter. We are going to work very closely 
to see whether or not the threat warrants a HIDTA--and if there 
is a possibility to get designated. It would be my 
recommendation we look at New Castle County--it is a county-
designated program--and make a business case to see whether or 
not we could be picked up by a HIDTA.
    Senator Coons. Thank you. I am confident that folks both in 
New Castle County, Wilmington, the State would be interested in 
partnering with you, both US-301 and I-95 provide great 
economic development resources for our State, but also lots of 
less legal economic activity to our State.
    One of our challenges has been integrating with our region 
in terms of information sharing and law enforcement, but also 
providing appropriate federal resources to help local law 
enforcement deal with the significant increase in gun and drug 
and gang activity that that brings.
    As you could all tell, I could ask many more questions. I 
have got another 20 questions prepared for this panel. We will 
stay in communication afterwards, as the Chairman mentioned. We 
will keep the record open for a number of days in the event you 
have got additional testimony you would like to provide to us 
as we complete the record of this field hearing.
    And more than anything, I just want to thank you so much 
for taking time out of your very busy days. Ms. Fennell, 
Special Agent in Charge McFeely, Mr. Burch, Colonel Coupe, and 
Chief Hosfelt, thank you very much for your testimony today.
    This hearing of the Judiciary Committee is adjourned.
    [Whereupon, at 12:37 p.m., the Committee was adjourned.]



                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              Prepared Statement of Chairman Patrick Leahy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Prepared Statement of Richard A. McFeely, Special Agent in Charge, 
    Federal Bureau of Investigation, Baltimore Division, Baltimore, 
                                Maryland

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Prepared Statement of Colonel Robert Coupe, Superintendent, Delaware 
                     State Police, Dover, Delaware

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Prepared Statement of Chief James Hosfelt, Dover Police Department, 
                            Dover, Delaware

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Prepared Statement of James Burch, Principal Deputy Director, Bureau of 
     Justice Assistance, Office of Justice Programs, Washington, DC

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Prepared Statement of Drewry Fennell, Executive Director, Delaware 
             Criminal Justice Council, Wilmington, Delaware

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Questions submitted by Senator Charles Grassley for Deputy Director 
                              James Burch

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Questions submitted by Senator Charles E. Grassley for Director Drewry 
                                Fennell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Responses of Deputy Director James Burch to questions submitted by 
                            Senator Grassley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses of Director Drewry Fennell to questions submitted by Senator 
                                Grassley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 ``Combating Crime with Restorative Justice,'' by James Nolan and Mark 
          Brunswick, Decemeber 7, 2010, www.delawareonline.com

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
